<html>
<title> - Georgia 2008, Ukraine 2014 – Is Moldova Next?</title>
<body><pre>[Joint House and Senate Hearing, 113 Congress]
[From the U.S. Government Publishing Office]


113th Congress 				    Printed for the use of the 
2d Session				    Commission on Security and Cooperation in Europe
_____________________________________________________________________________________________                                            
.                                           

                           GEORGIA 2008, UKRAINE 2014: 
                                IS MOLDOVA NEXT?


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                

                              MAY 6, 2014


                            Briefing of the
            Commission on Security and Cooperation in Europe

                            Washington: 2015
                                     

            Commission on Security and Cooperation in Europe

                     234 Ford House Office Building

                          Washington, DC 20515

                              202-225-1901

                          <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1b7868787e5b767a72773573746e687e357c746d">[email&#160;protected]</a>

                          http://www.csce.gov

                      Legislative Branch Commissioners
                      
                      

                  
                       SENATE					HOUSE
    
                                                          
 BENJAMIN L. CARDIN, Maryland,			CHRISTOPHER SMITH, New Jersey,
  Chairman					 Co-Chairman
        
 SHELDON WHITEHOUSE, Rhode Island		JOSEPH PITTS, Pennsylvania

TOM UDALL, New Mexico				ROBERT ADERHOLT, Alabama

JEANNE SHAHEEN, New Hampshire			PHIL GINGREY, Georgia

RICHARD BLUMENTHAL, Connecticut			MICHAEL BURGESS, Texas

ROGER WICKER, Mississippi			ALCEE HASTINGS, Florida

SAXBY CHAMBLISS, Georgia			LOUISE McINTOSH SLAUGHTER,
						 New York
JOHN BOOZMAN, Arkansas				MIKE McINTYRE, North Carolina
						STEVE COHEN, Tennessee
            
                                   
                  

                                  (ii)
                                     



           *         *         *         *         *
     ABOUT THE ORGANIZATION FOR SECURITY AND COOPERATION IN EUROPE

The Helsinki process, formally titled the Conference on Security and 
Cooperation in Europe, traces its origin to the signing of the Helsinki 
Final Act in Finland on August 1, 1975, by the leaders of 33 European 
countries, the United States and Canada. As of January 1, 1995, the 
Helsinki process was renamed the Organization for Security and 
Cooperation in Europe (OSCE). The membership of the OSCE has expanded 
to 56 partici- pating States, reflecting the breakup of the Soviet 
Union, Czechoslovakia, and Yugoslavia.
The OSCE Secretariat is in Vienna, Austria, where weekly meetings of 
the participating States' permanent representatives are held. In 
addition, specialized seminars and meetings are convened in various 
locations. Periodic consultations are held among Senior Officials, 
Ministers and Heads of State or Government.
Although the OSCE continues to engage in standard setting in the fields 
of military security, economic and environmental cooperation, and human 
rights and humanitarian concerns, the Organization is primarily focused 
on initiatives designed to prevent, manage and resolve conflict within 
and among the participating States. The Organization deploys numerous 
missions and field activities located in Southeastern and Eastern 
Europe, the Caucasus, and Central Asia. The website of the OSCE is: 
<www.osce.org>.


           *         *         *         *         *
       ABOUT THE COMMISSION ON SECURITY AND COOPERATION IN EUROPE

The Commission on Security and Cooperation in Europe, also known as the 
Helsinki Commission, is a U.S. Government agency created in 1976 to 
monitor and encourage compliance by the participating States with their 
OSCE commitments, with a particular emphasis on human rights.
The Commission consists of nine members from the United States Senate, 
nine members from the House of Representatives, and one member each 
from the Departments of State, Defense and Commerce. The positions of 
Chair and Co-Chair rotate between the Senate and House every two years, 
when a new Congress convenes. A professional staff assists the 
Commissioners in their work.
In fulfilling its mandate, the Commission gathers and disseminates 
relevant information to the U.S. Congress and the public by convening 
hearings, issuing reports that 
reflect the views of Members of the Commission and/or its staff, and 
providing details about the activities of the Helsinki process and 
developments in OSCE participating States.
The Commission also contributes to the formulation and execution of 
U.S. policy regarding the OSCE, including through Member and staff 
participation on U.S. Delega- 
tions to OSCE meetings. Members of the Commission have regular contact 
with 
parliamentarians, government officials, representatives of non-
governmental organiza- 
tions, and private individuals from participating States. The website 
of the Commission 
is: <www.csce.gov>.

                                 (iii)
  
                                     

              GEORGIA 2008, UKRAINE 2014: IS MOLDOVA NEXT?

                                  ------------

                                  May 6, 2014

                                   WITNESSES

                                                                   Page
Eugen Carpov, Deputy Prime Minister of Moldova, Minister for 
Reintegration..........................................................
                                                                      2
Paul Goble, Specialist on Ethnic and Religious questions in Eurasia, 
Editor of ``Window on Eurasia''........................................
                                                                      6
Stephen Blank, Senior Fellow, American Foreign Policy Council..........
                                                                     10

                                  PARTICIPANT

David Killion, Chief of Staff, Commission on Security and Cooperation 
in Europe..............................................................
                                                                      1

                                  (iv)


              GEORGIA 2008, UKRAINE 2014: IS MOLDOVA NEXT?

                              ------------

                              May 6, 2014

Commission on Security and Cooperation in Europe
                                                         Washington, DC

    The briefing was held from 12:03 to 1:34 p.m. EDT in 268, North 
Congressional Meeting Room, Capitol Visitor Center, Washington D.C., 
David Killion, presiding.
    Mr. Killion. Ladies and gentlemen, if we could get started today 
with this important briefing. Good afternoon. I'm Ambassador David 
Killion. I'm the chief of staff of the Helsinki Commission and this is 
my first event as chief of staff, so it's very special to me. I think 
this is an incredibly timely event. I want to welcome our speakers as 
well as our audience to this important briefing to examine Russia's 
intention toward Moldova and Transnistria, its secessionist region, in 
the face of growing violence and instability in southeastern Ukraine.
    This briefing is occurring at an urgent time, as violence in 
Odessa, which borders Moldova, continues to escalate, aided and abetted 
by Russia. In fact, we heard some information indicating over the 
weekend that many of the individuals arrested for violently attacking 
peaceful demonstrators for Ukrainian unity in Odessa were actually 
Russian nationalists and residents of Transnistria. At the same time, 
Ukrainian authorities reported that arms found in the building where 
over 30 of the individuals instigating violence and secession were 
tragically killed last Friday also originated from Transnistria and 
Russia.
    Equally concerning is the continuing lawlessness and violence 
across the region that's being perpetrated against state institutions 
and Ukrainian citizens who do not want to see their country Balkanized, 
occupied or controlled by Russia. Fighting continues in Slovyansk, 
where pro-Russian secessionists launched violent attacks upon 
supporters of Ukrainian unity, occupied government buildings and held 
OSCE military observers hostage for over a week. Pro-Russian thugs shot 
down two Ukrainian military helicopters in Slovyansk last week, 
resulting in the death and injury of several military officers. Only 
yesterday, other casualties were added as fighting persisted between 
the military and pro-Russian insurgents.
    The destabilizing events in Odessa are occurring a little over a 
hundred miles from Transnistria, where Russia maintains military forces 
and weapons against the wishes of the Moldovan government. Along with 
political and economic coercion, Russia has used this military presence 
to impede a peaceful and lawful settlement of Transnistria for over 20 
years.
    Today, the presence of Russian armed forces on Moldovan territory, 
on Ukraine's borders and in occupied Crimea violate the sovereignty and 
territorial integrity of both countries and aim to prevent their 
integration into Europe and hinder their economic and democratic 
development. Russia's actions violate every core principle of the OSCE 
and the United Nations, as well as Russia's obligation to guarantee 
Ukraine's sovereignty under the Budapest Memorandum.
    We look forward to this opportunity to discuss Russia's intentions 
in Moldova and Transnistria, and what the ongoing insecurity and 
conflict in the region portends for countries in the southern Caucasus 
and beyond. Deputy Assistant Secretary of State for Human Rights and 
Labor Thomas Melia was not able to join with us, so we will first hear 
today from our very distinguished guest, Moldova's deputy prime 
minister for reintegration, Mr. Eugen Carpov.
    Mr. Carpov has held the office of deputy prime minister of the 
government of Moldova since 2011. He has an extensive background in 
foreign affairs and has held positions in both the public and private 
sectors. From 2002 until 2005 he served as the Moldovan ambassador to 
Poland, before becoming the head of the Moldovan Mission to the 
European Union in 2005, a position he held until 2007. Following this, 
he became the chief of the International Cooperation Department of 
ASCOM Company from 2007 to 2008, and subsequently was the deputy 
general manager of the Komet Group Corporation from 2009 to 2011.
    We will then hear from Mr. Paul Goble, a longtime specialist on 
ethnic and religious matters in Eurasia. Paul has had a distinguished 
career. He has served as the director of research and publications at 
the Azerbaijan Diplomatic Academy and as vice dean for the social 
sciences and humanities at Audentes University in Tallinn. His previous 
work includes tenure as a senior research associate at the Euro College 
of the University of Tartu, in Estonia, during which he launched the 
Window on Eurasia series. Prior to joining the faculty of Tartu 
University, he served in various capacities in the U.S. State 
Department, the Central Intelligence Agency and the International 
Broadcasting Bureau, as well as the Voice of America, Radio Free 
Europe, Radio Liberty and at the Carnegie Endowment for International 
Peace. He's a prolific writer on ethnic and religious issues and has 
edited five volumes on ethnicity and religion in the former Soviet 
space. We're very, very pleased to have him with us today.
    Finally, we'll hear from Dr. Stephen Blank, a senior fellow at the 
American Foreign Policy Council in Washington and a leading 
international expert on Soviet, Russian, U.S., Asian and European 
military and foreign policy. From 1989 to 2013, Dr. Blank was a 
professor of Russian national security studies at the Strategic Studies 
Institute of the U.S. Army War College, in Pennsylvania. During 1998 to 
2001 he was Douglas MacArthur professor of research at the War College. 
He's testified before Congress on Russia, China and Central Asia, and 
he has published or edited 15 books focusing on Russian foreign, energy 
and military policies and on international security in Eurasia.
    Following the statements of our panelists and questions from this 
panel, the audience will have an opportunity to ask questions.
    So, Mr. Carpov, the floor is yours.
    Mr. Carpov. Thank you, Ambassador. Dear colleagues, thank you for 
organizing this event. The Helsinki Committee continues to serve as 
perfect platform for trans-Atlantic dialogue on important issues where 
U.S. and Europe have mutual and shared interests. Today's event has 
quite a provocative title. So at this session we will share our 
thoughts on the situation in Moldova and in our region. I hope this 
will be helpful to you to understand better what is going on in our 
part of the world and what are the perspectives.
    Since I'm dealing in the government of Moldova with the resolution 
of the Transnistrian conflict, it will represent major part of my 
remarks. First of all, let me set the parameters of the issue we are 
discussing. Transnistrian conflict has, at its basis, mainly a 
political dispute. It does not have ethnic or a religious background. 
The situation in the conflict area is generally peaceful. There were no 
military hostilities between sides since 1992. Certain tensions or 
incidents appear from time to time, but they have no direct military 
character and involve mainly law-enforcement bodies.
    The dialogue on conflict settlement process is taking place through 
a number of channels. The most-known is the five-plus-two negotiations 
format, where the Moldovan and Transnistrian region are the sides; 
OSCE, Russia and Ukraine mediators; and U.S. and EU observers. We have 
also meetings of the political representatives of the sides: the chief 
negotiators. In parallel, senior experts and decision-makers from 
various authorities are meeting in the sectoral working groups. There 
are contacts on higher political level as well. From our side, this is 
the prime minister and from the Transnistrian side is the leader of the 
region's administration. These meetings are taking place with different 
intensity depending on the situation. The key unresolved issue of the 
conflict settlement is: What status would the Transnistrian region have 
within Moldova?
    All international players involved in the conflict resolution have 
committed to assist in resolving the Transnistrian conflict on the 
basis of respecting sovereignty and territorial integrity of the 
Republic of Moldova and providing the Transnistrian region with a 
special status.
    Where the conflict settlement stands now: Current situation in the 
Transnistrian conflict settlement process can be characterized as 
stalemate in terms of the moving towards political settlement of the 
conflict. Regretfully, the trust and confidence between sides has been 
undermined by increasing negative rhetoric and unilateral actions which 
run against the ongoing negotiation process.
    About political aspects: The strategic goal of the Republic of 
Moldova is to achieve a lasting political settlement of the conflict 
based on the respect for sovereignty and territorial integrity of the 
Republic of Moldova. The Transnistrian region should have a special 
status within the reintegrated country. Such a status would enable the 
administration of Transnistrian region with sufficient level of 
competences to enjoy large autonomy within Moldova. The political 
solution of the conflict should ensure an effective and balanced 
decision-making mechanism.
    The European vector of the development of the Republic of Moldova 
after reintegration should also be preserved. Currently, Tiraspol, 
supported fully by the Russian Federation, refuses to talk, in the 
five-plus-two negotiations, on political and security issues. In the 
meantime, Tiraspol is promoting, outside of the political negotiations, 
the so-called concept of civilized divorce, as well as recently has 
made an address to the Russian Federation to be recognized as an 
independent state.
    Our position with regard to these steps is clear. The demands of 
the Transnistrian region are based on illusions and have no real 
perspectives. The Transnistrian region is recognized by all as part of 
the Republic of Moldova, and any request for international recognition 
contradicts the international law and principles of the conflict 
resolution process.
    On official level, all international partners which are 
participating in the negotiations process are unanimously supporting a 
peaceful solution based on the principles that I outlined earlier: 
respect for sovereignty, territorial integrity of Moldova, and special 
status for Transnistrian region within the Republic of Moldova. 
Basically, these principles are stipulated in the OSCE ministerial 
statements of the Transnistrian conflict adopted at the meetings of the 
OSCE Council of Ministers in Dublin 2012 and Kiev 2013.
    At the same time, we keep reiterating that real actions of the 
international partners should be in line with their official positions. 
This is not always the case. While the political process is stagnating, 
the efforts are concentrated on tackle some technical issues, but even 
in technical issues, the room for maneuver is limited due to difference 
in approaches. Chisinau is promoting proposals based on the idea of a 
rapprochement between sides, while Tiraspol is insisting on further 
separation. For example, when we are talking about radio frequencies or 
access of the Transnistrian companies to international transportation 
corridors, our view is that solutions should be based on, or at least 
not contradict, the existing international commitments that Moldova has 
undertaken. Also, such solutions should not lead to further separation. 
So we are a bit in a vicious circles there.
    In 2013, we managed to find agreement on few issues related to 
ecology, pensions, dismantling of some old and dangerous infrastructure 
objectives, and some aspects of freedom of movement. These are positive 
developments, but to move ahead, the conflict resolution process needs 
more comprehensive forward-looking decisions. There are a number of 
issues that could generate tensions. I will go briefly just to list 
them.
    A general point that I would like to make is that since the end of 
the last year, we feel increased pressure on every element of the 
Moldovan presence in the Transnistrian region. This is the case of 
Moldovan Latin script schools, case of access of Moldovan farmers to 
their lands on Transnistria-controlled de facto territory, case of the 
Moldovan police and two penitentiaries located in the Bender town. The 
line that we observe in each case is that Transnistrian side tries, by 
various means, to impose their rules or take under their control 
institutions subordinated to Moldova or apply pressure on people 
working in these institutions.
    Security situation in the region remains under our constant 
monitoring. In the last period of time, you observe that Transnistrian 
side is taking actions aimed at consolidation of its infrastructure at 
the administrative boundary line. The risk of increase of the presence 
of the Transnistrian military and security structures above notified 
limits also remain real. The deployment of military observers of the 
peacekeeping mechanism, whose main function is to monitor the 
situation, is frequently blocked because it's matter of consensus 
decision by all parties to the peacekeeping mechanism. The main 
supervisory body in the security zone, the Joint Control Commission, in 
many cases does not have a clear assessment of the situation. So all in 
all, there are a number of vulnerabilities that could turn into 
security challenges if there will be such an intention.
    The Russian military presence in Moldova remains factor of our 
concern. Our long-standing position has not changed. We call for 
finalization without any precondition of the withdrawal of ammunition 
stockpiles from Kobasna and remaining Russian forces in accordance with 
the relevant international commitments. We also consider that efforts 
toward modernization or buildup of this military presence would not 
contribute to security in the region and therefore are not welcomed.
    Let me sum up the approach of the Republic of Moldova. We put main 
focus on peaceful political dialogue. We will keep all channels of 
dialogue with Transnistria open to prevent unilateral steps and 
deterioration of the situation. We will demonstrate a calm approach and 
avoid involvement in any provocation. Prime Minister Iurie Leanca is 
ready to meet with Shevchuk without any preconditions. We also continue 
the dialogue at the level of chief negotiators and working groups.
    Our short- and medium-term goals are the following: maintain 
stability in the security zone; resolve issues like Moldovan Latin 
script schools or access to farmers' lands without any tensions; 
discourage pressure applied on police and penitentiaries in Bender; 
keep dialogue ongoing at all levels and try to achieve progress in all 
areas to create positive dynamics; maintain close contacts with all 
international partners involved in the settlement process and encourage 
their joint actions; move forward with the 5+2 negotiations.
    Situation in Ukraine and implications for the Transnistrian 
settlement--let me make a couple of remarks on the implications of the 
situation in Ukraine on the Transnistrian settlement process. First of 
all, as a neighboring country, and as friendly nation to Ukraine, the 
Republic of Moldova is very much concerned about what is going on 
there. We condemned the so-called referendum in Crimea and did not 
recognize the further annexation of Crimea by the Russian Federation. 
We consider it as a major challenge to the international law, political 
cooperation and security architecture in Europe.
    We are also very worried about spreading violence in east and south 
of Ukraine, in particular in the Odessa region. We consider that all 
efforts should be focused now on finding a peaceful solution that would 
preserve sovereignty, territorial integrity and unity of Ukraine. 
Nationwide dialogue between all political players that are acting in 
the legal and constitutional framework of Ukraine is needed.
    We continue to believe that the way towards de-escalation should be 
found jointly by Ukrainian government in cooperation with all 
international actors that could influence the situation on the ground. 
International engagements such as the OSCE Special Monitoring Mission 
to Ukraine, transparency mechanisms of the Vienna Document on CSBM and 
other tools should be applied to their full capacity.
    One of the trends which has become visible in the context of the 
situation in Ukraine is an intensified propaganda regarding the fact 
that Transnistrian region is under blockade. Tiraspol tries to provide 
it by saying that the crossing points on the border are empty and the 
flow of goods and people has decreased. Another element is that Russian 
citizens are almost prohibited to enter Ukraine through Transnistrian 
segment of the Moldovan-Ukrainian border. The reality is that the 
movement of persons has decreased due to objective reasons related to 
people's safety. Despite the increased control measures by Ukrainian 
authorities on this segment, available data shows that the refusal 
ratio of foreign citizens entering Ukraine remains extremely low, about 
1 percent of total entries.
    Concerning goods, the available statistics from both Tiraspol and 
Chisinau show that the foreign trade operations, in particular exports 
from the Transnistrian region continue to register positive dynamics. 
There was no disruption in cargo traffic. Moreover, in April this year, 
the Moldovan parliament canceled a number of taxes previously applied 
to the Transnistrian companies. All these facts clearly demonstrate 
that the rhetoric about blockade is not proved by facts.
    Let me also add a few more points about the political context in 
which Moldova lives these days. First of all, we are approaching a 
breakthrough in our relations with the European Union. Recently Moldova 
was granted a visa-free travel regime in Schengen Area for short-time 
trips. This was a result of major efforts undertaken by all national 
authorities in law enforcement, human rights, and document security 
areas. In June we are planning to sign the association agreement with 
the European Union and DCFTA. This event will mark the irreversible 
character of our European path.
    At the same time, we face some counteractions to European 
integration. I'll just exemplify it by recent developments in the 
southern part of the country, namely the Gagauzia autonomous unit. We 
feel that skeptical mood towards European integration is being worked 
up in this region. The government of Moldova is committed to dialogue, 
and we are already taking actions to explain better our policies and 
perspectives. The parliament has also formed a special group for 
dialogue with the legislative body of Gagauzia. So we are intensifying 
our dialogue with the autonomous region Gagauzia.
    The last point is the upcoming parliamentary elections in late 
November this year. We anticipate quite a tough competition between the 
governing parties and opposition. In recent years elections in Moldova 
have quite a visible geopolitical dimension, and we expect it to be so 
in current year.
    Summing up, I would say that these days Moldova finds itself in a 
crucial moment of its history, being geographically very close to the 
center of major dispute and tension between the key international 
players, facing a number of security challenges and experiencing 
ongoing political debate about the future of the country. This is time 
to support Moldova, and we thank again the Helsinki Committee for this 
opportunity to present our story.
    Thank you.
    Mr. Killion. Thank you very much, Mr. Deputy Prime Minister.
    Now I give the floor to Paul Goble. Thank you very much.
    Mr. Goble. Thank you, Ambassador.
    I thank the commission for calling this hearing and giving me an 
opportunity to speak on Moldova. It is a country I care very much 
about, and unfortunately, it is one that has not gotten the attention 
it deserves.
    The topicality of the focus of this hearing is obvious. I suspect 
that my colleagues, like myself, felt in preparing our remarks that we 
had a very real risk that developments on the ground were moving so 
fast that anything we might have written even last night might be 
overtaken by events given what is occurring in Ukraine and in Moldova 
itself.
    The importance of Moldova simply cannot be overstated at the 
present time. What Moscow is up to in Moldova as an extension of its 
policy Ukraine and into the Balkans could easily prove far more fateful 
to Europe and the West than Russia's invasion of Georgia six years ago 
did, or than its ongoing aggression in Ukraine is. The three reasons 
that that may very well prove to be the case can be quickly stated. 
First of all, the outcome of Vladimir Putin's actions in Ukraine, and 
thus of his entire imperial project, will depend in large measure on 
what Moscow is able to do and make use of Moldova's Transnistria.
    Second, in his efforts to derail Moldova's efforts to join Europe, 
where it quite properly belongs, Putin has put in play, as has been 
mentioned, the Gagauz, a Turkish community in the country's southeast 
that would likely secede in a violent fashion if Transnistria is 
allowed to exit or even gain significant autonomy as a result of 
Russian pressure.
    Third, the demise of the Moldovan state--which would likely occur 
if those two things took place--could trigger changes not only in the 
borders of Moldova but throughout Southeastern Europe, force the 
federalization of what could become a greater Romanian state, reverse 
the post-World War I settlement there of Trianon, and contribute to a 
radical destabilization of the continent. Consequently, focusing on 
Moldova should be a matter of concern for everyone.
    Each of these possibilities requires a great deal of additional 
comment but I will simply limit my remarks to this: These dangers are 
so great that we can identify them quite easily and we can, at the 
present time, take steps which maximize the area we have a relative 
advantage in, which is in soft power, and reduces the possibility that 
in the future we will have to make use of hard power, which is 
someplace where in Southeastern Europe we enjoy a comparative 
disadvantage. Consequently, it is terribly important that groups like 
the OSCE and the Helsinki Commission make demands on what we need to do 
immediately.
    For two decades Moscow has consistently supported, both in public 
and covertly, the breakaway Transnistria region, a place where many 
have observed that the August 1991 coup against Mikhail Gorbachev in 
fact succeeded. It may have failed elsewhere but it succeeded there--
and one which has the largest, or almost the largest, Soviet arms 
cache, which this regime has sold off to terrorists and others to 
support itself and to promote a variety of nefarious missions around 
the world, giving Russia plausible deniability but in fact being done 
in closest coordination with the Russian government.
    The Putin regime has declared Transnistria a frozen conflict, and 
all too many in the West have been willing to accept that idea and that 
there must be a negotiated settlement in which Moscow will have the 
whip hand. That acceptance of course has meant that no settlement is 
possible or will be possible because the Russian government, at least 
under Vladimir Putin, prefers the managed instability in this region to 
a stable, thriving and pro-Western Moldova.
    In recent weeks--and this is terribly important to take note of--
Moscow propagandists have changed their thematics on Transnistria. They 
have proclaimed it, quote, ``a second Crimea,'' arguing that, like 
Crimea, its population--which Moscow untruthfully claims consists of a 
Russian majority; there is no ethnic Russian majority in Transnistria; 
there is a Slavic plurality but that is not the same thing--that 
Transnistria should and must become part of the Russian Federation, and 
that if an application is made, Moscow should agree.
    But far more disturbingly, in the last few weeks Moscow writers and 
officials have begun talking about Transnistria as an ally of Russia's 
in Putin's project of creating Novo Rossia, a new Moscow client state 
stretching from Crimea on the east to Transnistria in the west and 
reducing Ukraine to a landlocked country, or even eliminating it 
altogether by partition. There have already been credible reports that 
armed individuals and groups from Transnistria have entered 
Southwestern Ukraine and were present in Odessa during the recent 
troubles, in support of secessionist groups.
    If Moscow does launch an overt invasion of Ukraine--something I 
think it probably will not do precisely because its subversion of 
Ukraine is succeeding as well as it is from Moscow's point of view--it 
seems clear that Transnistria will play a major supporting role, at a 
minimum forcing Kiev to divide its forces and, at a maximum, catching 
Ukraine in a two-front war that it would find far more difficult to 
win.
    The second Russian action in Moldova, one that has attracted far 
less attention but may ultimately play an equally large geopolitical 
role, is a promotion of Gagauz's separatism. The Gagauz, a 200,000-
strong nation living in a dispersed rather than compact area of 
settlement which is conveniently neglected by many of the Russian 
commentators, have long wanted greater linguistic and political 
autonomy. In the early '90s their activism forced the Moldovan 
government to cede power to them and to agree that should Moldova's 
external borders be changed by the exit of Transnistria, the right of 
the Gagauz would exist to move toward independence.
    The Gagauz have neither the numbers nor the arms supply nor the 
international contacts that the regime in Transnistria does, but they 
do have an important political resource in addition to the support they 
are getting from Moscow. They are Christian Turks and thus enjoy the 
attention and potential support of both the Moscow patriarchate and the 
Republic of Turkey. In the event of a crisis, either or both could come 
to their aid, something the Russian government would undoubtedly use as 
a cover to promote a new wave of secessionism, just as they used that 
technique in Crimea and in greater Ukraine in recent weeks.
    If both Transnistria and Gagauzia, defined in border terms were to 
secede, Moldova would, like Ukraine in the Putin project, be left a 
rump state where a large percentage of the population would likely have 
to find union with someone else. It's been suggested that a rump 
Ukraine would have to be absorbed by Poland and a rump Moldova would 
have to go for some kind of union with Romania.
    That is the third action that Russia has a longstanding and long-
term interest in. Indeed, some in Moscow now appear to be more 
interested in destabilizing the broader region and undermining Europe 
than even in seizing control of particular territories, given the 
social and economic costs that Moscow would have to bear. It is far 
better to destabilize areas and keep other people out than it is to 
take control and have to pay for the social welfare costs that are 
involved.
    What would happen if Moscow provoked disintegration in Moldova and 
alleged a union with Romania? Almost certainly, given the differences 
in historical experience deriving from Soviet control in Moldova, that 
new state would be federalized, and federalization in this case would 
spark demands for a Hungarian autonomy in the north. And such demands, 
given the Hungarian government in place at the present time, would 
likely enjoy support from the north, and that would create a very 
unstable situation that could lead to the kind of controversy that the 
settlements after World War I were intended to eliminate and start 
destabilization that would go even further into the former Yugoslavia 
and south to Greece as well, all of them affecting American interests.
    Given how serious this potential threat is, we need to think what 
we can do now. None of them, of course, are inevitable. Russia's 
``victory,'' quote, unquote, in Crimea is not inevitable. It is not 
necessarily that it will stay the course. I welcomed your remarks about 
nonrecognition of the Russian occupation of Crimea, which is an illegal 
act. I believe we must articulate a clear nonrecognition policy with 
regard to Crimea and other Russian areas, just as we did with respect 
to Estonia and Latvia and Lithuania in 1940. That was a policy that was 
kept in place for more than 50 years and became the birth certificate 
of the recovery of independence of those three countries. We need to 
understand that we are in an equally fateful situation now.
    I would like to argue that we need to do five things right now. 
First, we need to recognize Moldova's centrality to our security 
concerns and to build up expertise inside the government and in the 
American For far too long--based as a personal experience, I can tell 
you--Moldova has been treated as a, quote, ``orphan'' country, as a 
country that doesn't have domestic support in this country because of 
the Romanian connection and that is not somehow terribly important. In 
fact, Moldova's geographic position means that in an age of 
geopolitics, which Mr. Putin is playing even if we are not, it is much 
more important than anyone can imagine. It isn't about size. It's about 
location.
    Second, we need to expand Western broadcasts to Moldova and 
especially Russian-language broadcasts there. The fact is that Vladimir 
Putin has transformed Moscow television into an organizing tool, much 
as Lenin used Iskra a hundred years ago to organize and undermine 
stability in neighboring countries. We need to have an alternate voice. 
It is terribly important that the people in Transnistria who do speak 
Russian get their news from a Russian-language channel that is not 
propaganda from the central government in Moscow.
    Third, we need to promote change within Moldova, not by holding it 
up to standards that will allow us to say no. Too many of the 
suggestions about how we should assist countries other than Russia 
start by saying, these are the standards we have to require, but that 
is usually a covert way of saying, and we'll then have an excuse not 
for doing something. We need to have a much bigger picture. We need to 
promote exchanges, sending Americans to Moldova and bringing Moldovans 
to the United States. Such exchanges were the heart and soul of 
American policy in Western Europe after 1945. They should be at the 
heart and soul of American policy now.
    Fourth, we need to recognize, and be open about it, that our 
approach to Transnistria, like our approach to Nagorno-Karabakh, and 
our approach to almost all of the frozen conflicts on the territory of 
what once was the Soviet empire, has been wrong. Involving Russia in 
these things is a guarantee that they will not be solved, because 
Russia has no interest in solving these conflicts. What we need is to 
promote bilateral talks of the kind that the deputy prime minister has 
discussed rather than injecting things in a way to allow Moscow to have 
a veto.
    Fifth, in my view anyway, we need to offer a united Moldova 
immediate membership in NATO and, together with our European allies, 
put it on the fast track to European Union membership. Despite the 
vocabulary of many in Washington over the last two decades, one does 
not, quote, ``qualify'' for a defense alliance. One includes a country 
in a defense alliance either because of its position or its ability to 
contribute to the goals of that alliance. Moldova, by its position, can 
do that. It is worth noting that one of the earliest members of NATO 
does not even have a military, something those of us who were part of 
the Baltic cause frequently had occasion to note.
    In considering these ideas, I would like to suggest that we need to 
remember the implications of a remark that Winston Churchill made to 
the American ambassador in 1944. He said at the time that, quote, ``The 
Americans can always be counted on to do the right thing--after they've 
tried everything else.'' That is often quoted as a suggestion that 
Americans are simply bumbling incompetents. In fact, what Churchill was 
calling attention to is something that we have not yet been willing to 
focus on, and that is we no longer have such disproportionate economic, 
political and military power that we can afford to make mistake after 
mistake. We have to get things right soon. That requires expertise. 
That requires attention. And it requires that we use the soft power, 
which is where we will always enjoy a comparative advantage, before 
it's too late. Moldova is a very good place for us to start. Thank you.
    Mr. Killion. Thank you, Mr. Goble, for your very powerful testimony 
and the bright lines that you drew for us. And now, Mr. Blank, it's 
your turn.
    Mr. Blank. Thank you, Ambassador Killion. I'd like to thank you and 
the Helsinki Commission for inviting me and for holding this hearing. I 
agree with what has been said here before, that Moldova is a critical 
country which does not receive the attention it deserves. It plays an 
important geostrategic part in Southeast Europe, for a number of 
reasons.
    Basically, Moldova serves as a precedent, as a template, and as a 
lynchpin of Russian strategy to destabilize the entire area from the 
Balkans to the Caucasus by exploiting and inciting conflicts using the 
ethnic card and all the instruments of power at its disposal to prevent 
the creation of consolidated states, whether it be in the former 
Yugoslavia, in Moldova or in the Caucasus, or in Ukraine, and to regain 
the empire. It is very clear from what we are now seeing in Ukraine, 
which acts by Russia constitute an act of war, and that has to be 
understood. When people say we are risking a war if we do something in 
retaliation for all this, the fact is that there already is a war. 
Invasion, occupation and annexation, as in Moldova, are acts of war, as 
in Georgia, as in Ukraine, and they need to be recognized as such.
    Moldova is a precedent. It is the first place where the Russian 
government used the ethnic card and the military card 22 years ago in 
order to establish a kind of neo-Soviet criminalized regime, which 
looks to Moscow, and which Moscow has gradually come to recognize as 
its own and therefore to resist negotiation. It is a template for what 
is happening now in the Ukraine by virtue of that operation, but 
furthermore because Mr. Putin has been preparing for this operation for 
the 15 years that he's been president.
    Already in 2000 he made clear that he did not believe that Moldova 
was really a genuine state and that it had to acknowledge the special 
interests of the Russians there. His federalization plan of 2003, the 
so-called Kozak plan, would have destroyed any genuine sovereignty in 
Moldova and is a template for what he is trying to impose now on 
Ukraine. Moreover, at least since 2006, we know for a fact--this has 
been published in open sources--that Mr. Putin and the Russian 
government were training Russian, Ukrainian and Moldovan soldiers at a 
camp in Solnechnogorsk to conduct the kinds of operations we see going 
on in Ukraine that have gone on since February 27th.
    So there is no excuse for anyone to say that this was unforeseen. 
It certainly wasn't unforeseen by Mr. Putin. He was planning this 
operation for years. And he even said to George Bush at Bucharest that 
he would dismember Ukraine if it moved to the West, and that it was not 
a state and that its territory, meaning Crimea, was a gift from Russia. 
We need to keep an eye on what's going on here and pay greater 
attention to the Balkans and the Caucasus and Ukraine, because the 
future of European integration and European security, which are the 
vital interests of both the United States and of Europe, are at risk 
here, as Paul Goble and Deputy Prime Minister Carpov have pointed out.
    In the Caucasus we see Moscow inciting the Nagorno-Karabakh 
conflict. Four billion worth of arms has been sold to Azerbaijan in the 
last four years, the buildup of the Russian forces in the Caucasus, the 
achievement of a base at Gyumri for 25 years, plus arms sales to 
Armenia indicate that Moscow has no interest in solving the Nagorno-
Karabakh conflict because it is profiting from keeping it going, not 
just in financial terms but in geopolitical terms, because it is able 
to impose its will on Armenia and to prevent Azerbaijan from getting 
closer to the West.
    What's more, it is inciting conflict by running guns covertly from 
Montenegro in the Balkans to Stepanakert. From 2010 through 2013, for 
example, 38 Ilyushin-76 planes took off from Montenegro, loaded top to 
bottom with arms, heading for Stepanakert, the capital of the, quote, 
``independent'' Nagorno-Karabakh. It doesn't take much imagination to 
understand whose weapons these are and whose planes these are, and what 
that means in terms of Russia's ability to corrupt officials in 
Montenegro, and its efforts to use the Balkans in order to incite 
trouble in the Caucasus.
    Moreover, historically the conquest and incorporation of Ukraine 
has been the basis from which Moscow has then proceeded to launch all 
of the imperial gambits it has launched in the Balkans, going back to 
Catherine the Great. Today that is--there is no difference. We look at 
the pattern in Ukraine. The territories that are being threatened are 
precisely those that would allow Russia a direct landline to Moldova. I 
don't think that's a coincidence.
    Furthermore, in the Balkans Moscow's project is to prevent, 
frustrate and obstruct European integration and democratization, and to 
project its military power. It has asked Serbia for a base ostensibly 
for humanitarian interventions at Nis. It restored a naval base on 
Montenegro at Bar in the Adriatic. And it has projected its power into 
Transnistria and then used that power, as we have heard, to go back in 
and incite difficulties in the Ukraine.
    If Moldova is allowed to be truncated in its sovereignty, abridged 
in its territorial integrity, then all the kinds of consequences that 
Paul Goble has just specified become real, relevant and potential 
threats to European security. And they will not only take place around 
Romania, Moldova and Hungary because the Russians are also busy trying 
to prevent Serbia and Kosovo from achieving a lasting piece by inciting 
every kind of Serbian nationalist outrage against Kosovo that it can 
and to prevent the unification of Bosnia Herzegovina in the Baltics, 
just as it's doing in the Caucasus. Whereas in the Caucasus, it runs 
guns, or uses the military arm in order to prevent Georgia from 
achieving its integrity and sovereignty over Abkhazia and South Ossetia 
or to prevent conflict resolution in Nagorno-Karabakh. It is doing 
exactly the same thing in the Balkans. It is all part of a single 
strategy whose objectives are, A, restoring the Russian empire, if not 
necessarily the Soviet Empire; B, solidifying Mr. Putin's domestic hold 
by playing the imperial card to claim that he is a gatherer of Russian 
lands. C, preventing European integration in the Balkans and the 
Caucasus, and D, perpetuating what can be called a state of siege in 
East-West relations; much like Lenin did in 1917 when he took power.
    For all those reasons, Moldova is a state that deserves much more 
consideration and interest and attention from the United States. Apart 
from the recommendations that Paul Goble has made, all of which I 
support, it is necessary also for us to understand that the threat we 
now face in Ukraine is one that will not only be dealt with by 
sanctions, although much more rigorous sanctions are needed. The ones 
that have been imposed to date are clearly insufficient, and have been 
reported as such.
    But it is also unfortunately necessary that we have to help Ukraine 
with the instruments of hard power: training, weapons, and I would 
argue, also, an invitation to NATO to bring in NATO forces as 
peacekeepers into the afflicted areas, because I believe that that will 
deter Russia, and unfortunately, only that will deter Russia, because 
what has been done up till now is not enough and will not be enough and 
certainly has not altered Mr. Putin's decision-making calculus, as 
President Obama has indicated.
    Therefore, much more vigorous action is needed and is needed over 
the long term. What is at stake today, as Secretary Kerry has observed, 
is the European settlement after the Cold War's termination in 1989 to 
'91 to the extent that we continue to be missing in action in the 
Caucasus, in the Balkans and in Ukraine, it turns out that that 
revision of the settlement is likely to occur without our participation 
and against our interests, and those interests are the same as our 
allies' interests.
    So if we abandon our alliances because we don't understand what's 
at stake, or are too selfish or apathetic to care, we will have indeed 
harvested a much greater danger. Ukraine is not the end of Mr. Putin's 
ambitions, it is only the beginning. Thank you.
    Mr. Killion. Thank you, Mr. Blank, and thanks to all of the 
witnesses for very provocative testimony, and food for thought for the 
commission and for others. I'd like to start by asking a question to 
our very distinguished deputy prime minister, Mr. Carpov. An issue that 
was raised in Mr. Goble's testimony--recent poll results in Moldova 
indicate that Russian television and other Russian media have a very 
strong influence in Moldova in reflecting Moldovan and international 
news, especially related to the Russian invasion of Ukraine. EU 
integration--Eurasian customs union, et cetera. Does your government 
plan any action to put Russian TV channels on the same footing with 
other foreign channels?
    Mr. Carpov. Thank you for this question, Ambassador. It's really a 
sensitive one. We are facing difficult times in the Republic of 
Moldova, and I mentioned why. Well, informational competition is a real 
thing that exists in the Republic of Moldova. We also can see that 
different Russian channels in this specific period are using elements 
that are not corresponding fully to different democratic standards or 
levels according to the legislation of the Republic of Moldova, 
according to the international standards and rules.
    That's why now we started a process--when we tried to monitor 
closely--very close the way that Russian channels are presenting the 
information that is spreading over the media area of the Republic of 
Moldova. Based on the results of this monitoring, we will definitely 
decide what are the next steps in order to assure there are equal 
rights and possibilities for all channels, national and foreign media 
channels and full respect of the legislation that is governing the 
activity of foreign media channels. Thank you.
    Mr. Killion. Thank you very much. And now a question for Mr. Goble. 
You stated that the leadership in Transnistria has sold arms caches 
from the Soviet Union era. Could you advise as to the recipients of 
such arms and what the Moldovan government and the international 
community is doing to prevent the proliferation?
    Mr. Goble. The problem is that during the Cold War and during the 
Soviet occupation of Eastern Europe, there were a number of arms caches 
that were put in forward areas to be used in the event of a NATO-Soviet 
conflict. One of those places with millions of tons of arms was in what 
is now Transnistria. That has been an arms bazaar, and it has gone to a 
variety of groups. I know that it has gone to a number of Islamist 
radical groups. There are reports, which I find credible, that it has 
gone to terrorist organizations that are directed against Western 
countries.
    I do not believe that those sales were undertaken autonomously by 
Tiraspol. I believe that they reflect a way of Moscow providing arms to 
anti-Western forces with the kind of plausible deniability, which I 
regret to say is rarely challenged. The Moldovan government, I am 
absolutely certain, would not tolerate these sales if it were in a 
position to control that territory if, in fact, what the international 
community said were realized, namely that the borders of Moldova 
include a place called Transnistria, rather than Transnistria being run 
as a Russian project outside of the control of Kishinev.
    One of the many reasons for doing away with the idea that Moscow 
can be our partners in solving Transnistria is that Moscow has no 
interest in doing that, because this is a resource it is quite 
interested in continuing to use. I believe that we have a compelling 
interest in preventing terrorist groups from being armed, and I believe 
that we have an immediate danger that that will continue to be the case 
out of Transnistria unless and until the Russian government is not in a 
position to make use of Transnistria as it has for two decades. I 
suspect it's true that some of the sales that went out of the Soviet 
arms cache were done to make money for the people in the Tiraspol 
government, and to even pay some of the Tiraspol government's bills. 
But I believe that on the whole, those sales have been coordinated 
carefully with Moscow rather than being an autonomous action, even of 
Tiraspol.
    Mr. Killion. One additional question, Mr. Goble. You talked about 
the establishment of a clear nonrecognition policy regarding Crimea. 
Could you elaborate a little bit about what elements would be included 
in such a clear nonrecognition and how that would be different from the 
status quo?
    Mr. Goble. There's an enormous difference, and I'm delighted to 
have that question and have a chance to speak to it. Since 1930, the 
United States has taken a position that was articulated by then 
Secretary of State Stimson that it did not recognize any territorial 
change achieved by force alone. That is to say that if force is used, 
and then there's a post-force settlement, as there was in 1918, 1919, 
that that might be the case. Indeed, when, in 1940 American 
nonrecognition policy with respect to Estonian, Latvia, Lithuania was 
articulated, it was on the assumption, at least I believe so from what 
I've read--that there would be a peace conference after World War II 
was concluded.
    Nonrecognition policy for Estonia, Latvia and Lithuania is a useful 
model. It is important to say what it specified and what it did not 
specify and why it's so important to have such a policy in place with 
respect to Crimea or any other place that the Russian government tries 
to seize.
    First, nonrecognition policy said that the United States did not 
recognize this seizure, period. That we've already done. But that's not 
enough. Second, this specified that no senior American official--that 
was defined as someone confirmed by the Senate--would ever visit that 
territory while it was under occupation. Third, in the case of Estonia, 
Latvia, Lithuania, we recognized the diplomats of the pre-war 
governments. We did not recognize governments in exile. Fourth, the 
United States specified that any map produced by the U.S. government--
we produce an awful lot of them, would carry on it the statement that 
the borders as claimed by the USSR were not recognized by the United 
States and that we did not recognize the forcible inclusion of Estonia, 
Latvia and Lithuania into the USSR, and that policy stayed in place. We 
have already seen the problem of not having a clearly articulated 
policy like that, which was crafted in 1940 by Loy Henderson. In that, 
there have been several American government websites that have put out 
maps showing Crimea already part of the Russian Federation. That's 
intolerable and would not be the case if there were a clear policy 
statement. Simply saying we will never recognize it isn't enough. You 
have to say what that means.
    Now, two other points that I think are important. The U.S. non-
recognition policy of Estonia, Latvia and Lithuania never carried with 
it a suggestion that the United States was committed to doing anything 
military to the liberation of these places not even in the darkest days 
of the Cold War. That was important because it is not that we would 
engage in a response to aggression by using military force, but rather 
we will use moral suasion, and this is why we will have maps that 
should show as long as Moscow claims that Crimea belongs to it and is 
part of the borders--inside the borders of the Russian Federation, that 
the United States government, as a matter of settled policy, does not 
recognize that, but not that the United States is committed to using 
force from the Black Sea or anywhere else to drive the Russians out. 
That's important because the distinction, which gives us some moral 
high ground, and does not create expectations, which I regret to say we 
would never realize anyway.
    The second thing is that by articulating a new nonrecognition 
policy in Crimea, we can revive a policy which was one of the most 
morally important during the Cold War. We did not do that, tragically, 
after the Russian invasion of Georgia in August of 2008. We did not 
articulate a nonrecognition policy of that kind. Crimea is a second 
occasion when we should do that. And it would serve notice to Moscow 
and to a variety of other governments around the world that the United 
States, as a matter of settled policy, is going to not recognize the 
results of aggression as legitimate, period. That is something that 
flows from our own national tradition. It's a policy that was the right 
thing to do from 1940 to 1991 for Estonia, Latvia and Lithuania and is 
the right thing to do with respect to Georgia and now with respect to 
Ukraine, and I would like to see it ready and we can fill in any place 
else that the Russians or anyone else tries to use military force. But 
just saying that you'll never recognize it isn't enough, because it 
does not create the doctrinal basis within the bureaucracy to prevent 
errors, which will be used by the other side to chip away at this 
attack on international legitimacy. As Steve Blank has quite accurately 
said, what Mr. Putin is doing is a regression not only against the 
settlement of 1991 but against the settlements of 1945 and 1919. And 
nonrecognition policy is a way of making it very clear the United 
States is opposed to the revision of those three settlements and that 
we have a policy in place that will prevent any American official, be 
he an embassy officer in Kiev, someone at a U.S. international 
broadcaster or anywhere else from crossing a line that the Russians 
will make and other people may make use of to legitimate a criminal 
act.
    Mr. Killion. Thanks for that clarification.
    I want to ask you, Mr. Blank, you talked about a hard power 
dimension of policy response to the current situation in Ukraine, and 
you spoke about NATO and training and so forth, and I just would like 
you to elaborate a little bit and talk about how the timing of your 
proposed policy response would work with the speed at which events seem 
to be unfolding on the ground in eastern Ukraine and other parts of the 
country.
    Mr. Blank. Well, thank you. It's necessary really to begin right 
away. What is necessary here is, I would say, that if the Ukrainian 
government were to invite NATO peacekeeping forces--which is its 
sovereign right--then the response should be yes and we should start 
moving forces into Ukraine right away. They would have restricted rules 
of engagement. They would not be able to conduct offensive operations, 
but they would be given the capabilities to protect themselves against 
either regular or what we might call irregular forces that are 
currently involved, and that means also air and air defense 
capabilities if necessary.
    Beyond that, it is urgent to help the Ukrainian government 
stabilize its Ministry of Defense and command establishment, and to 
start providing training for Ukrainian soldiers, because there is a 
great danger that Ukrainians who are opposed to this Russian invasion 
will start organizing themselves and that the Ukrainian government will 
lose control of that instrument of power, plunging the country into 
something let's say similar to Bosnia or Northern Ireland or Syria. So 
it's important for us to help the Ukrainian state get a handle on its 
own military and to devise a strategic coordinated approach to 
prevailing over and repulsing the Russian invasion, because it's very 
clear that the Russians have now decided to up the ante and use 
violence. Shooting down helicopters clearly indicates the presence not 
only of Russian weapons but of Russia officers, because you just don't 
give people air defense weapons and say go ahead and use this. There's 
training involved here, as we know from our own experience in--for 
example, in Afghanistan. So there is that. Second, we also know that 
what is going on already in these occupied territories is repression. 
We've had numerous cases of reports already of anti-Semitic outrages, 
attacks on Crimean Tatars, and coercion. It was just revealed last 
night, for example, that the Russia government's own information 
sources indicated that only 30 percent of Crimea voted in the quote 
``referendum,'' and only 15 percent of those voting supported it. 
That's hardly a sign of the democratic will of the people. What that 
means, therefore, is an occupation by force. So that has to be 
countered.
    Now, the rules of engagement for that force are to be clearly 
marked out as being purely defensive, but I think that sanctions alone 
are not going to do the job, because, first of all, European energy and 
other companies are busy making private deals with Mr. Putin, as we 
have seen. Secondly, a lot of European governments really don't want to 
impose sanctions. Wall Street and Bulgaria are looking for ways to 
bring about the South Stream pipeline, which is the key to Russian 
domination of the entire area through energy. The European Commission 
has not yet said that it will under no circumstances allow South 
Stream, which is what it should do, because that would make it clear to 
Russia what's going on. There are other sanctions that we have the 
capability of doing on our own or together with our allies, and nothing 
is happening in that regard. So as a number of analysts--for example, 
George Friedman of Stratfor point out--sanctions provide the illusion 
that we're doing something when we are really not doing enough or doing 
serious activity to roll back and prevent further incursions. It is my 
firm conviction, therefore, that if we allow this to go forward, then 
we will face further questions in Europe, and not only in Europe, and 
not only from Russia, and that therefore the blend of hard and soft 
power instruments, with a coherent strategy in mind, is the only way 
forward.
    Mr. Killion. Thank you very much.
    Very shortly we're going to turn questions over to the audience, so 
please be prepared for that. Before we do that, I'd like to turn the 
floor over to my colleague Winsome Packer, who is the Helsinki 
Commission's expert on the security dimension of the Helsinki Final Act 
and also this region, including Moldova.
    Mr. Packer. Thank you, Ambassador.
    I'd like to ask a question about the conflict resolution mechanisms 
in Transnistria, Georgia and Nagorno-Karabakh. They have, by a limited 
estimation proven entirely ineffective over the 20 years that they have 
been in place. And I'd like to ask the panel's recommendations as to 
what you think might be done to modify them and achieve some progress 
in any one of these areas.
    Mr. Blank. If I may go first, there has to be a recognition in the 
United States that--A, that these programs have failed, as you have 
said; and that, B, that it is in our important, if not vital, interest 
that we regenerate the conflict resolution process in order to bring 
both sides, in at least one or more of these conflicts, to the table 
and to an ultimate solution. And unfortunately, that means that we 
would have to take the lead and sponsor, if you like, a Camp David type 
situation with regard to any or all of those conflicts.
    It is patently clear that Moscow has not only no interest in 
resolving these conflicts, but that it has a positive interest and is 
undertaking actions toward those ends to incite them further, and not 
only these, Kosovo and Serbia, Bosnia and Herzegovina as well.
    I would recommend--and I have written this before about Nagorno-
Karabakh, but it applies to the others--that the president invite the 
leaders of Armenia and Azerbaijan to the United States and essentially 
conduct that kind of negotiation that President Carter did with regard 
to Camp David, because that's the only way it's going to come about. 
Armenia, for example, been virtually deprived of its ability to conduct 
a sovereign foreign policy, thanks to Russia. We saw that last 
September when Russia said, if you sign the association agreement with 
the European Union, we will cut off aid, we will make sure you can 
never get Nagorno-Karabakh back, and we may destroy your economy and so 
forth and so on. And Armenia caved in to that.
    So it's necessary for the president to undertake the action. 
There's no guarantee of success. The same thing is true with regard to 
Moldova. Moscow will no doubt tell Armenia and Transnistria not to 
attend these conferences, and it will certainly prevent the South 
Ossetians and the Abkhazians from doing so. But in that case, we can 
then turn around and say, in that case, we will not participate in any 
of those processes, and there will be no conflict resolution, and 
what's more, we will support our allies, and make the cost of doing so 
much greater to Russia, because there is no way at present in order to 
bring about conflict resolution given what is going on.
    If you understand that Moscow not only wants to block this, but 
wants to incite conflict, then it is our responsibility to understand 
that the only way forward is to prevent Moscow from gaining its 
objectives. And their objectives are to prevent both European 
integration and the spread of democracy in Europe. And the spread of 
democracy in Europe cannot take place in conflict zones.
    Mr. Goble. I would just add to that--I agree with everything Steve 
has said. I would just point out, as someone who's old enough to have 
been completed the Minsk Process about Karabakh, wrote at the time that 
it was a recipe for making sure there was never a settlement, because 
it insisted that one of the players that would have a veto was over it 
was the Russian Federation. I remember visiting Baku in 1996, and 
Heydar Aliyev, who was then the president, asked me, how long do we 
have to be independent before we will stop being treated as newly 
independent states and appendages of Russia?
    It is worth remembering that the closest that Armenia and 
Azerbaijan ever got to a settlement was not because of the Minsk 
Process, but the Key West meeting where it was a bilateral 
conversation. The United States has an important interest in promoting 
resolutions of these conflicts, but we have to understand that you 
don't invite someone who is a longtime arsonist to the table to talk 
about how to put out fires. And that is what the Russian government is 
doing.
    The tragedy is that if these conflicts go on, at some point someone 
will use force--Azerbaijan in Karabakh is a possibility--and that works 
to Russia's advantage as well. So it's very much in our interest to 
promote bilateral talks. It's very much in our interest to stop 
assuming that the Russians should have a seat at the table.
    This country failed utterly for the first decade in treating the 
countries that emerged when the Soviet Union disintegrated as separate 
and independent. The only time that an empire has fallen apart and 
where for a whole decade the United States kept all of those countries 
in the same bureaucracy they'd been part of at our key institutions of 
foreign policy was with respect to what had been, in effect, the Soviet 
Russian empire. That drove an awful lot of things where the assumption 
was that Russia should have a seat at the table. It is the only time in 
the history of American diplomacy that a man who's been an ambassador 
at one of the countries that gained its independence in this process is 
subsequently, quote-unquote, promoted to become deputy chief of mission 
in the imperial capital. That sends a very profound message. If you do 
that, if you keep acting as if Russia has regard in this area, the 
Russians will pocket that and continue.
    We've got to promote bilateral talks. The Key West model, I don't 
believe at present, is practical, but I think that's what we should be 
moving toward. We should recognize that Armenia is in a much weaker 
position vis-a-vis Moscow than it was when Key West happened and that 
the Azerbaijanis are less susceptible to Western influence. But that's 
an indictment of what we've done for two decades, not something that 
was unknowable at the time. It's going to be bilateral talks.
    I was delighted to hear the deputy prime minister talk about the 
importance of bilateral talks between Chisinau and Tiraspol. If we 
insist on thinking that everything has to be multilateral, which is a 
way of getting us off the hook, in a way, what we will do is we will 
guarantee that you will not get a settlement and that the situations 
will deteriorate because one player that we will insist at being at the 
table will do this.
    One last thought on this. I think it was a horrific mistake to have 
the meeting between the foreign minister of the Russian Federation, the 
international affairs representative of the European Union and the 
United States and the foreign minister of Ukraine in Geneva because in 
effect, what we asked the Ukrainians to do was to agree to their own 
submersion. With respect, even the people who are most criticized for 
the way they responded to Nazi aggression in the '30s did not ask the 
Czechoslovaks to be present at their own submersion. You don't do it 
that way.
    When a country has engaged in open aggression--and this is open 
aggression, it is time not to talk about pro-Russian forces. This is an 
action of the Russian state. And it is something much worse for those 
who are concerned about the OSCE project. As Steve has said, and as I 
tried to indicate, what we have seen is a man who is reversing the 
settlement of 1945, the basis of the United Nations and the basis of 
the international order. Vladimir Putin is insistent that ethnicity is 
more important than citizenship. That is what got us into World War II. 
That is what is the basis of Russian aggression in Ukraine, Moldova and 
in the Balkans, not to speak of Central Asia and the Caucasus. This is 
what people should really be worried about--if that principle goes 
unchallenged in the Russian case, there are a number of other rising 
powers that will invoke the same thing, and we will have problems in 
Asia as well. And that is something we can't afford to counter then, so 
we had best counter it now.
    Sorry to be so emotional about this, but it's outrageous to 
constantly assume that we are talking with people who want to find a 
settlement when what they want is American cover for aggression that 
they have committed. And that's what we have with respect to the 
Russian government of Vladimir Putin.
    Mr. Killion. Mr. Deputy Prime Minister.
    Mr. Carpov. To add some words based on our experience with the 
Transnistrian conflict settlement, well, from the very beginning, I 
mentioned that in Moldova, there were no ethnic or religious roots for 
the conflict. It's a, purely political conflict, and political elements 
that generated the violence in Moldova. If we agree with this, then we 
have to clarify from where these political interests are coming and who 
are the international actors interested in such processes.
    In our case, and now having Ukraine in the situation that it is, 
it's clear that it's a geopolitical competition between East and West. 
Unfortunately with Moldova and Ukraine--we are a part and we are 
suffering part from this competition.
    Conflict resolution--it's obvious that if there are powerful 
international actors interested in a specific development in a country, 
we have to see who can be a real co-partner for such a dialogue. In the 
case of the Transnistrian conflict, you remember that until 2005, the 
negotiation format was composed by five participants: Chisinau, 
Tiraspol, and only Ukraine, Moldova and OSCE. That is why we considered 
that the format was unbalanced. It was Moldovan efforts to bring to the 
table of negotiations some other participants, and now we have United 
States of America and the European Union unfortunately, as observers. 
We are pleading further for the increasing of the role of United States 
of America and EU at the level of the mediators to have an equal 
dialogue between all really important international actors that can 
bring positive evolutions in the settlement.
    Well, as I mentioned before, we see a vital necessity to maintain 
contacts at the level of Chisinau and Tiraspol, because this is also an 
additional way to understand better the mentality of the opponents and 
to bring arguments in case there are elements that are not 
corresponding to the realities. Now, this is an additional element to 
the 5+2.
    Then looking at the procedures, it's obvious that consensus in 
adopting decisions is a democratic principle, consensus. But in many 
cases, this element becomes an obstacle when if there is one 
participant who is not agreeing because of some internal, arguments, 
not agreeing with the decision shared by all other participants, it 
becomes a problem. It becomes a problem, and then probably there is a 
need to have additional instruments of explaining, convincing such 
actors in the truth of some arguments and coming to this common idea.
    Thank you.
    Mr. Killion. I would like to now jump quickly to the audience. We 
need to move to your questions because we will lose the deputy prime 
minister very soon. As you can imagine, he's very much in demand at 
this moment in history and his visit to the United States.
    Questioner. Thank you.
    Mr. Killion. Our former ambassador to Moldova. Please introduce 
yourself.
    Questioner. I'm Pamela Hyde Smith. I was ambassador to Moldova some 
years ago and, like many Americans who spend time there, fell in love 
with the place and have stayed that way. So thank you for your 
excellent testimony.
    I would like to follow up on a question I've had about Moldovan 
public opinion, Right-Bank Moldovan public opinion. I heard some months 
ago that there was limited enthusiasm for European integration among a 
majority, a plurality of Moldovans, and also not much interest in the 
Transnistria issue. Is that still true? And if so, what should we be 
doing to help it not be so? Thank you.
    Mr. Carpov. Well, thank you, Ambassador, for being here with us and 
for your question. That's true, there are different polls showing 
different figures of support of the Moldovan society for the European 
integration process and Euro-Asian aspects of possible integration. 
Well, I personally think that it is also a part of a beginning of a 
campaign, electoral campaign that Moldova will face in November this 
year. That's true in Moldova, we have pro-European forces and parties, 
political parties, and there is opposition, with mainly Communist Party 
being clearly pro-Customs Union now, promoting this message in favor of 
pro-Eastern Europe integration, Euro-Asian integration.
    But I'm convinced that we have a clear majority in the Republic of 
Moldova pleading for the European integration. And the results of the 
voting in November will show this. At least I'm convinced that this is 
the only possible way for Moldova to continue democratic reforms and 
transformations is to have the democratic government and majority in 
parliament for the next four years, and not only for four years.
    Transnistria--that's true probably; 22 years of negotiations is a 
long period of time, and maybe some sensibilities of this issue have 
been lost and the society somehow is now acting with the sentiment that 
Transnistria is a problem, and the end of the story is not even very 
visible. That's why the interest is not so high. But this is probably 
also a part of our homework for the next immediate time, to have an 
informational campaign to really try to explain to our society, 
especially to the Transnistrian region, to Gagauz autonomy, other 
Russian-speaking areas, what are the real content of the European 
integration process, what are the benefits, what it means--European 
perspectives and reintegration of the country. This is what we have to 
intensify.
    Mr. Killion. If you could identify yourself.
    Questioner. Thank you. Margarita Assenova, of the Jamestown 
Foundation. I have a question for Deputy Prime Minister Carpov. What 
kind of assistance would you like to receive from the United States to 
deal with the illegal smuggling of weapons from Transnistria to other 
regions, and radioactive materials? I realize it's about a depot that 
stays there with so many years and how it can be dismantled and 
destroyed, so it's a wider question, but it's time to be solved. Thank 
you.
    Mr. Killion. Simon, one more question right here. We'll collect the 
last two questions and then let the panelists deal with the collective.
    Questioner. Thank you very much. I am Batu Kutelia, The McCain 
Institute. I'm from Georgia. I am former Georgian ambassador to the 
U.S. In the '90s, we were facing a very serious problem of the building 
up a cornerstone of European security. In the process of the adaptation 
of Conventional Forces in Europe, there was quite a significant 
achievement based on the regional cooperation when Moldova, Ukraine, 
Georgia and Azerbaijan formed a group called GUAM, and in particular 
the CFE dimension, this group achieved a lot while having a 
consolidated approach against Russia's interest to maintain its 
military presence in so-called near abroad.
    So what would be your assessment of need or necessity of that type 
of regional cooperation by countries concerning the Russian aggressive 
behavior?
    Mr. Killion. Who would like to go first in dealing with those 
questions?
    Mr. Goble. I'll just say three sentences. First, I think the United 
States has to get involved in international broadcasting into Moldova, 
both television and radio, and in both Moldovan and in Russian 
language. Second, I think that GUAM is a wonderful organization; I'd 
like to see it get its second U back. I'd like to see it get some 
others added. That is a very hopeful thing. It would be very important 
as a counterweight and as a forum for discussions that would clearly 
indicate that a rejection of the CIS and its latest Russian imperial 
incarnation, the Eurasian Union, which I think is going to fall under 
its own weight, but Putin has moved much too fast, and I think 
Lukashenko can see that. I'll stop with that.
    Mr. Carpov. Thank you. On the assistance, I have to admit that we 
have a very good level of cooperation with partners from the United 
States of America on different concrete projects. And if it is about 
border control or radioactive materials--and I understand--you based 
your question on the last information from Ukrainian sources that they 
stopped a car with 1.5 kilograms of radio and nuclear materials coming 
from Transnistria region for not very clear purpose, and now we are in 
contact with our Ukrainian colleagues to clarify the situation.
    But about assistance for the Ministry of Interior--the institution 
dealing with the border guards and combating international crimes, they 
have a very good program of assistance from the United States of 
America in this respect, but now we are discussing possibility to 
increase the support that we are receiving from our American friends in 
order to be prepared to react promptly at the new elements of risks 
that can occur.
    On the GUAM, that's obvious that Moldova supports different forms 
of regional cooperation, and we were among the countries that initiated 
the GUAM cooperation. We maintain our interest for this group. We think 
there are a lot of positive possibilities to develop cooperation 
between us in the different areas, and we think that while it doesn't 
necessarily to have evolutions like we have in Ukraine in order to 
strengthen regional cooperation; it should be natural--coming from 
participating countries as part of getting better life for our 
societies. Thank you.
    Mr. Blank. I would add to that that for an organization like GUAM 
to succeed--and is one of many attempts to create regional security 
organizations on the peripheries of the Russian Empire, which have 
historically all failed, it is necessary for the parties to work out a 
genuine strategic consensus that they keep to, because if they allow 
themselves to move apart, then the whole organization will fall apart. 
Furthermore, with regard to the CFE treaty--this is another case 
which--that U.S. policy, I think, has failed to assess the situation. 
When Russia suspended its participation, which is a nonexistent legal 
category with regard to an international treaty in the CFE seven years 
ago, we didn't do anything about it. I would argue that it's really no 
longer possible to sustain that treaty and that given the fact that the 
Russian military is almost always going to be stronger than any of its 
neighbors, just given the preponderance of resources at its disposal, 
which we need to come up with a new modality.
    I'm not altogether certain that regional organizations are going to 
prevail when they appear to be much more attracted to the European 
Union and NATO. Given that, although I would support something like 
GUAM, and provided that there is a genuine working consensus that leads 
to it, I think it's necessary for us and for Brussels--and that's both 
organizations in Brussels--NATO and the EU--to make it clear that we 
are prepared to take action to expand both organizations and invest the 
necessary resources not only in European self-defense but also in 
European energy and freedom from Moscow, and therefore, to invest in 
these countries and to help them strengthen their capabilities to be 
independent and resist Russian subversion and threats and make it clear 
to Russia that, just as is the case in Ukraine, any attempt to 
undermine them carries severe costs.
    The fact of the matter is, Russia has declared itself to be an 
outlaw state, and second and this is even more critical, based on what 
Paul has said, that it has told the world that it believes Russia can 
only be secure if it's an empire, that the system of governance in 
Russia can only continue if Russia is an empire, which means the 
diminished sovereignty, if not territorial integrity, of all of its 
neighbors, not just the former Soviet neighbors, because it doesn't 
really recognize the sovereignty and integrity of Poland, Romania, et 
cetera. Therefore, if they are going to act in such a way as to 
preserve the state of siege in Europe, then Europe must return to a 
policy of deterrence, which means building up strong states on the 
peripheries.
    Mr. Killion. Thank you very much, and thank you to all three 
participants. It's been a very useful briefing for us, and we'll take 
back what we learned to our commissioners. Thank you very much.

                                 
 

This is an official publication of the Commission on
Security and Cooperation in Europe.

<SUP><</SUP> <SUP><</SUP> <SUP><</SUP>

This publication is intended to document
developments and trends in participating
States of the Organization for Security
and Cooperation in Europe (OSCE).

<SUP><</SUP> <SUP><</SUP> <SUP><</SUP>

All Commission publications may be freely reproduced,
in any form, with appropriate credit. The Commission
encourages the widest possible dissemination of its
publications.

<SUP><</SUP> <SUP><</SUP> <SUP><</SUP>

http://www.csce.gov     @HelsinkiComm

The Commission's Web site provides access
to the latest press releases and reports,
as well as hearings and briefings. Using the
Commission's electronic subscription service, readers are
able to receive press releases, articles, and other
materials by topic or countries of particular interest.

Please subscribe today.
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
